<html>
<title> - MEMBER BRIEFING ON VOTING IN THE HOUSE OF REPRESENTATIVES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]


 
MEMBER BRIEFING ON VOTING IN THE HOUSE OF REPRESENTATIVES--THE ROSTRUM 
AND THE ELECTRONIC VOTING SYSTEM: A ``WALKTHROUGH'' BY THE CLERK OF THE 
                        HOUSE LORRAINE C. MILLER

=======================================================================

                                HEARING

                               before the

      SELECT COMMITTEE TO INVESTIGATE THE VOTING IRREGULARITIES OF
                             AUGUST 2, 2007

                       HOUSE OF REPRESENTATIVES,

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 18, 2007

                               __________

                             WASHINGTON, DC

SELECT COMMITTEE TO INVESTIGATE THE VOTING IRREGULARITIES OF AUGUST 2, 
                                  2007



                     U.S. GOVERNMENT PRINTING OFFICE
46-059 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              WILLIAM D. DELAHUNT, Massachusetts, Chairman
ARTUR DAVIS, Alabama                 MIKE PENCE, Indiana, Ranking 
STEPHANIE HERSETH SANDLIN, South         Member
    Dakota                           STEVEN C. LaTOURETTE, Ohio
                                     KENNY C. HULSHOF, Missouri


MEMBER BRIEFING ON VOTING IN THE HOUSE OF REPRESENTATIVES--THE ROSTRUM 
AND THE ELECTRONIC VOTING SYSTEM: A ``WALKTHROUGH'' BY THE CLERK OF THE 
                        HOUSE LORRAINE C. MILLER

                              ----------                              


                       THURSDAY, OCTOBER 18, 2007

                          House of Representatives,
 Select Committee to Investigate the Voting Irregularities 
                                         of August 2, 2007,
                                                    Washington, DC.

    The committee met, pursuant to call, at 8:05 a.m., in the 
House Chamber, The Capitol, Hon. William D. Delahunt (chairman 
of the committee) presiding.
    Present: Representatives Delahunt, Davis, Herseth-Sandlin, 
Pence, LaTourette and Hulshof.
    Ms. Miller. Good morning. Let me just tell you what our 
agenda is today. What we want to do is give you, the select 
committee, a slow walk through a typical vote so that you will 
be able to see how we actually execute a vote on your behalf.
    Then the first thing I want to do is we have--we took the 
liberty of getting probably the three most essential people in 
making sure your vote is accurately recorded. The first person, 
I think, that you need to know is the seated tally clerk.
    Today Mark is our seated tally clerk. So what does Mark do? 
He operates the EVS system, and he enters all the well votes. 
So he is essential. We can't operate without having the seated 
tally clerk.
    Mr. LaTourette. Is Mark's last name O'Sullivan? Is he the 
chief tally clerk?
    Ms. Miller. Yes, Mark O'Sullivan, Mr. O'Sullivan.
    The second person who is really key to this process is the 
standing tally clerk. Today that position will be played by 
Frances Chiappardi, who is our Chief of Legislative Operations.
    What does Frances do? When Members come to the well, she 
will take the well cards; she writes the roll call number on 
the well card. She has to make sure that the Member's name is 
legible, because a lot of times you will just hand it to her, 
and we have to make sure we are able to identify who it is.
    Then, she gives that well card vote to the seated tally 
clerk, who enters it into the EVS system, and then, at the 
conclusion of a vote, the standing tally clerk will then write 
out the tally and give it to the Parliamentarian, who then 
gives it to the presiding officer for announcement.
    The other person that is really essential to this is the 
reading clerk.
    Where is Kristen? Hello, Kristen.
    Kristen reads all of the communications that the House 
receives, the messages, the motions, and the legislation. Then 
she inserts any amendments when we are carrying on legislative 
business. If someone has an amendment, it is Kristen's 
responsibility to make sure it gets inserted properly.
    At the end of the vote, when the Chair calls it, when a 
Member changes a vote with less than 5 minutes left, then that 
is announced at the rostrum.
    So when we are in the final 5 minutes of a vote, if someone 
comes to the well and wants to change a vote, it is announced, 
``Mr. Pence, off aye, on no,'' and that is our typical 
procedure.
    Mr. LaTourette. Is that because the voting stations are 
locked out of changes with 5 minutes left to go in a 15-minute 
vote?
    Ms. Miller. Yes.
    What we are going to do now is try to go through a typical 
vote and just let you see how--I was amazed that so many 
Members didn't know that we had a computer screen. There is a 
terminal here on the floor that we use to record your votes.
    The Chairman. Ms. Miller, in a 5-minute vote, as opposed to 
a 15-minute vote, is there a lock, or is it just kept open?
    Ms. Miller. A lock?
    The Chairman. A lock. In other words, to change a vote at 
that point in time, can it be accomplished through a voting 
card, or does it require a Member?
    Ms. Miller. You can change it there at your voting station. 
Then once it is done, you will have to come to the well.
    So what typically happens, the presiding officer will give 
an
announcement, and our distinguished Parliamentarian Mr. 
Sullivan----
    Mr. Sullivan. Do you want me to start?
    Ms. Miller. Yes.
    Mr. Sullivan. The trigger for Mark to open the vote so 
Members can record at the stations is when the Chair says, 
``The yeas and nays are ordered. Members will record their vote 
by electronic device.'' Instead of having the Clerk call the 
roll of names, the Chair is invoking the computer. That is 
Mark's cue to turn the system on.
    Mr. Pence. Can I ask you a question, Lorraine? The 
Parliamentarian is talking about the practice of Members to 
record their votes by electronic device. The House rules, do 
they make reference to that kind of an announcement, or is it 
accurate that the House rules are silent on the electronic 
voting machine?
    Mr. Sullivan. They are not silent. The default system for a 
recorded vote is to direct the Clerk to call the roll of 
Members and have them respond by yelling yes or no. But the 
Chair has the discretion, whenever he or she wants, to invoke 
the electronic system instead. That, of course, is in more than 
99 percent of the cases.
    The Chairman. But there is no specific mention of it.
    Mr. Pence. Just for clarification, is there a specific 
reference to the electronic voting system in the House rules?
    Mr. Sullivan. Yes.
    Mr. Pence. There is.
    Mr. LaTourette. Is it in rule 20?
    Mr. Sullivan. Yes.
    The Chairman. Is it a lengthy rule? Could you summarize in 
part?
    Mr. Sullivan. It says in clause 1(b), for example--I think 
it is mentioned in more than one place, but in clause 1(b) of 
rule 20, it says, ``If a Member requests a recorded vote, and 
that is supported by the requisite number, the vote should be 
taken by electronic device unless the Speaker invokes another 
procedure to record the votes provided in this rule.''
    The Chairman. That is sufficient. Thank you.
    Mr. Pence. Do the rules give any further definition of the 
electronic device? Does it give any specificity about that 
relative to--I have been told in informal discussions that 
since 1977, the rules have not really discussed in any great 
detail the electronic voting system.
    Mr. Sullivan. The rules have not mentioned that there would 
be 46 voting stations, that they respond to smart cards, or 
that they be linked to a wall display, or that they even be 
linked to a wall control. That is all nontextual.
    Mr. Pence. Thank you.
    Ms. Miller. The Parliamentarian, the presiding officer, has 
given us the preliminary to the cue, so, Mark, our next effort 
is to initiate a vote. He is going to do this slowly.
    Now, Mark has been watching the floor proceedings, and he 
knows that we have H.R. 2020 in consideration, which you guys 
have been talking about. We are simulating that this is the 
passage of H.R. 2020.
    You notice on the screen that means on passage it is the 
yeas and nays. Here are listed a lot of options. Let me turn 
around so I can see. It can say on passage, on agreeing to the 
amendment, on the motion to suspend the rules and pass, like we 
do on a suspension.
    So he has those options to choose from. So we know that we 
are on passage, and we would then be asking for the yeas and 
nays. So he has got his screen cued up. You are ready to go.
    He presses on ``go,'' and then it says, ``Start this 
vote?'' That is all done so quickly. Now, we are taking the 
time now, but this is done in very rapid succession. Start the 
vote, because the presiding officer has already said, ``Members 
will record their votes by electronic device.'' He will then 
click on ``yes,'' and that starts two things: The displays come 
up, and the clock starts.
    We are in a 15-minute vote. So your displays are up, the 
clock is running.
    Now, what he does now is he is going to go to a well vote, 
because right now all 46 of the voting stations are open, and 
he is going to----
    Mr. Davis. How many voting stations are there?
    Ms. Miller. There are 46 on the floor, 46.
    Ms. Herseth-Sandlin. Mark, could you go back, after you 
started the vote, that first screen came up again?
    Mr. O'Sullivan. Back to the primary.
    Ms. Miller. This is our primary screen.
    Mr. Gore. Which is slide 1.
    Ms. Herseth-Sandlin. As soon as you start the vote, this 
comes up, and then you hit ``well voting.''
    Ms. Miller. Yes. For the first 10 minutes you can go to any 
of the 46 voting stations and vote, and change your vote. After 
the 10 minutes--he is waiting here, until Members start coming 
to the well. So what we would like to do is for Mr. Pence and 
Mr. Delahunt to go vote, if you wouldn't mind.
    For Mr. Pence, watch the board and his name once he inserts 
his card, and he casts the vote.
    Mr. Gore. The display boards also show virtually 
immediately the 1.
    Ms. Miller. So we have a ``yes'' and a ``no.'' The clock is 
still running. This is typically what happens, but there are so 
many of you that are voting, we are just doing this as an 
example.
    The Chairman. Madam Clerk, Mark is seeing exactly--this is 
just a secondary as opposed to the primary; that is the 
control, right?
    Mr. O'Sullivan. What you are seeing is what I am seeing.
    The Chairman. But you are controlling.
    Ms. Miller. He is controlling it.
    The Chairman. That you would describe as----
    Mr. O'Sullivan. Part of the primary menu.
    Ms. Miller. But that is the control.
    The Chairman. But that is the control?
    Ms. Miller. This is the control. That is the monitor here.
    The Chairman. Everything you are seeing on the floor, what 
the Majority and Minority see are the----
    Ms. Miller. Same thing.
    The Chairman. A reflection, an instantaneous reflection of 
the control, of the input?
    Ms. Miller. Of the seated tally clerk, yes.
    Mr. Pence. Point of clarification, if I may--no, no, 
Stephanie.
    Ms. Herseth-Sandlin. No, no, go ahead.
    Mr. Pence. The question I had, is Mark's position, is----
    Ms. Miller. He is the seated tally clerk.
    Mr. Pence. My question, Madam Clerk, is the seated tally 
clerk involved in the transaction that takes place between a 
Member's vote and an electronic device and the appearance of 
the vote on the wall on either board?
    Ms. Herseth-Sandlin. He is not doing anything for that 
first 10 minutes, right?
    Ms. Miller. No. As you vote at the voting station, he 
doesn't make it appear there, it automatically does that. The 
system itself will place your vote.
    Mr. LaTourette. When does he enter the well cards that are 
changes at the end of the vote? If I have lost my card in the 
first 5 minutes, does he do that now, or does it wait until the 
end?
    Ms. Miller. No, he can do that now. He can put you in now, 
and it will be displayed. That is one of the things that we 
wanted to do. If one of you wanted to change your vote or 
someone came to the well to vote now----
    Mr. Hulshof. May I do that?
    Ms. Miller. Sure.
    Mr. Hulshof. I am sorry, Mr. Delahunt.
    Ms. Herseth-Sandlin. That is the same thing. In the first 
10 minutes he just kind of sits back and waits.
    The Chairman. Actually, in the first 10 minutes----
    Ms. Herseth-Sandlin. Unless someone goes up and they don't 
have their card.
    Ms. Miller. He is given the card----
    The Chairman. If I may, Madam, because I know the 
stenographer--if we can just pose our questions and allow her 
to take them down, and the rest of us will go back to regular 
order, so to speak.
    Ms. Miller. What typically happens, a Member will give the 
standing tally clerk a well card and immediately look up to see 
if the vote is posted. It does take the seated tally clerk a 
couple of seconds to enter it. Then it is electronically shown. 
So, Mr. Hulshof----
    Mr. O'Sullivan. I will have to verify the screen.
    Ms. Miller. Yes, he must verify every well card vote. Every 
vote must be verified, and then he accepts that, and there he 
is. That happens for every well card vote. It is verified, and 
then it is displayed.
    All right. Why don't we have someone change their vote 
before the 5 minutes?
    You are free to----
    The Chairman. I am going to change.
    Ms. Miller. You want to do it at the well? You can do it at 
a voting station.
    The Chairman. I can't, right? I will do it at the well. Let 
me ask as a matter of course, and I just wrote Delahunt down, 
that is sufficient for your purposes?
    Mr. O'Sullivan. We would know, but we would like to get the 
state, delegation and the district, particularly for the 
duplicate names.
    Ms. Miller. Mark is going to enter--see. He does. Mr. 
Delahunt. Now, notice on the screen it says, ``Vote, aye.'' He 
was ``no.'' Now his vote is ``aye.'' He has to accept that, and 
then it changes on the board.
    The Chairman. Madam Clerk, the time that is involved, I 
presume there haven't been any studies done, but what would be 
the estimate of----
    Ms. Miller. How long it takes?
    The Chairman. Right. Ten, fifteen seconds before you 
verify?
    Ms. Miller. No. What he is saying, once you enter a vote in 
the system, and then it gets----
    Mr. O'Sullivan. Ten seconds.
    Ms. Miller. Remember----
    The Chairman. This is a cue?
    Mr. O'Sullivan. Depending on how many cards I have, there 
may be a delay by the time I receive your card; it may be my 
tenth card, so it kind of clogs up. But once I get to your 
card, it is only a matter of a few seconds.
    Ms. Miller. Ms. Herseth.
    Ms. Herseth-Sandlin. If Mark is given a number, if the 
cards are coming relatively quickly, Mark, do you enter each 
Member's name, the vote, and verify each one separately; or 
with the columns that we have here, could you take four or five 
cards, enter the names, put the vote in and not go to the next 
screen to verify all five?
    Mr. O'Sullivan. I have the option to do more than one. I 
could fill in the screen.
    Ms. Miller. He could fill the entire screen there with well 
card votes, and then they would be verified in massive numbers. 
So he could do 10 at a time if he chose to.
    Mr. Gore. Almost to 5 minutes.
    Mr. Pence. Madam Clerk, quickly, you have used the word 
``verify'' several times. Can you just give me 10 seconds on 
how he verifies the vote, who he verifies the vote with before 
he presses ``accept''?
    Ms. Miller. Mark.
    Mr. O'Sullivan. What I am verifying is I have--I am 
inputting the correct vote. So I have a green card, a yea vote 
for Mr. Hulshof. I am going to make sure that it says 
``Hulshof, yea.'' So that is the verification. This card is 
matching the input.
    Mr. Pence. Thank you.
    Ms. Miller. We are approaching 5 minutes. Would someone--
Mr. Pence, would you quickly change your vote?
    Mr. Pence. Electronically?
    Ms. Miller. Yes, sir. You have 36 seconds. Okay. You can 
see that he changed from green to red and that the summary 
boards also changed, okay? Now we are approaching a 5-minute 
mark. After 5 minutes, when you get to 5 minutes, you cannot 
change your vote at the voting stations. You have got to come 
to the well.
    Mr. Davis, would you come and vote at the well?
    Ms. Herseth, will you attempt to vote at the voting 
stations?
    Mr. O'Sullivan. She can vote, there is no change.
    Ms. Miller. Okay, why?
    Ms. Herseth-Sandlin. Because I haven't voted yet.
    Ms. Miller. Okay.
    Ms. Herseth-Sandlin. This has happened to me before, if I 
vote ``yes,'' and then I realize, oh, no, they switched the 
order, and I try to stick it back in and vote ``no,'' can I do 
that in 5 minutes? I will try to do that.
    Ms. Miller. Okay.
    Where are you, Ms. Herseth?
    Ms. Herseth-Sandlin. I am up there--but then I say, oh, I 
want to vote ``no,'' it won't let me.
    Ms. Miller. Okay. You have to come to the well.
    Mr. O'Sullivan. Since Mr. Davis is a duplicate, this is 
normally how I would handle a duplicate name.
    The Chairman. Mark, can you speak a little louder?
    Mr. O'Sullivan. This is how I would handle Mr. Davis, when 
we have duplicate names. I generally put in the last name and 
then call up the list and choose the Member I am looking for. 
If I type in ``Davis'' in the system, I am going to get this 
list.
    Ms. Miller. These are the listings of all the Davises that 
are current Members of the House and voting.
    Mr. O'Sullivan. I just pick, happens to be first one. So I 
say ``yea,'' and then it pulls his name out into the verify 
screen, verifying this card.
    Ms. Miller. Okay. You verified it, you accept it.
    Mr. Pence. Madam Clerk, it is my understanding as well that 
when someone does what Ms. Herseth-Sandlin just did, that the 
system will record both her vote and her attempt to change the 
vote on the electronic system; is that correct?
    Ms. Miller. Yes, it will. Any time a Member inserts a card 
into the receptacle, it is recorded. There is a file that is 
created.
    Mr. Pence. Even if the vote cannot be changed at that 
point, there is still an electronic record made of the attempt 
to change it.
    Ms. Miller. Even if Members are just checking the vote to 
make sure.
    Ms. Herseth-Sandlin. Is there a distinction in the system 
if I had voted yes, took my card out, put my card in, but 
didn't push any buttons, and the red light--the green light 
would brighten up? So what Mr. Pence is asking, if I tried to 
hit the red button, and it didn't light up, that is----
    Ms. Miller. It will tell us.
    Ms. Herseth-Sandlin. It will tell you that I hit the red 
button?
    Ms. Miller. It will tell you that you attempted to check or 
to change, yes.
    The Chairman. It distinguishes between checking and 
changing.
    Ms. Miller. Or voting, Goldey, it distinguishes between 
checking and changes?
    Mr. Vansant. It does.
    Ms. Miller. It is a file that is created.
    Mr. Davis. Now, when we say there is a distinction between 
checking and changing, is it when you stick it in, and you 
attempt to do what you have already done, that is simply 
recorded for duplicative action? Actually, what is the 
distinction from checking and changing from the machine 
standpoint?
    Ms. Miller. Goldey Vansant, who is our Chief of Computer 
Systems--Goldey, stand up.
    Mr. Vansant. I didn't quite hear.
    Mr. Davis. What is the distinction between checking and 
changing from a machine standpoint. You say a machine 
distinguishes between the two. What are you doing?
    Mr. Vansant. If you verify what we are seeing actually, the 
transaction, we are seeing it hard in--under your name. If you 
have already voted, it indicates to us that it has lit the 
appropriate light on the station, and indicates that as a 
verified vote. When you take the card out, we now see an entry. 
Card out, the time is recorded at that point.
    If you are inside the 5-minute mark, you have inserted your 
card, and then you attempt to change your vote, we will see an 
entry in there that says, ``Attempt to change vote.'' If you 
take the card out, there will be another line entry that says, 
``Card out.''
    Ms. Miller. It is very sophisticated. The transaction log, 
that is very interesting. A lot of times we will have Members 
to say, I attempted to vote, it didn't take my vote. We always 
pull the transaction logs, and it will tell you what you have 
done and how many times you have tried to verify it. Sometimes 
you will see Members who just come back to a different voting 
station around the Chamber and attempt to verify their votes.
    Mr. Gore. I will just add that transaction log, you all 
will have a copy of it. We will be able to go back and see the 
second, exact second, in which that was done.
    Ms. Miller. Yes, it even times it. It is pretty precise.
    Mr. Pence. Madam Clerk, I guess under FOIA, all of this 
would be public documents, but how public, how accessible to 
the public is that electronic record at this point in time?
    Ms. Miller. I think we have exempted ourselves.
    Yes, we are exempt employees, but we don't----
    Mr. LaTourette. Right. You may not have voted for it.
    Ms. Miller. Right. We are exempt of FOIA. We, on occasion, 
will share it with a Member; never with the press, never, ever, 
ever, because we see that as your personal vote. It is not to 
be disclosed.
    The Chairman. This is a bit of a digression, but does that 
include all congressional records?
    Ms. Miller. We are exempt from FOIA.
    Mr. LaTourette. So carry on.
    The Chairman. That was the first good question I have asked 
today.
    Ms. Miller. Needless to say, we have lots of press 
inquiries asking for those records. We just don't do it unless 
you guys want us to do it.
    Mr. LaTourette. The way the new Majority is going, they 
might want to do it.
    Ms. Miller. Okay. We are fine now. So we have 4-1. There is 
obviously one Member who hasn't voted, correct?
    Mr. O'Sullivan. Ms. Herseth-Sandlin, on the vote, after the 
5 minutes, when the clock hits 5 minutes, she submitted this 
red change card, which I am going to enter and put it on the 
list. I am going to put it on the vote. So here is the change.
    Ms. Miller. Mark, we are about to close the vote.
    John, what would you say, what would the presiding officer 
be saying as we get down to the end of a vote?
    Mr. Sullivan. There are two phases. The first phase is 
marked by the Chair's utterance, ``Have all Members voted,'' 
or, ``Does any other Member desire to vote?''
    The second phase is marked by the Chair's utterance, ``Does 
any Member wish to change their vote?''
    When the Chair makes that second utterance, it triggers the 
activity between the tally clerk and the reading clerk to 
announce those changes that occurred after the 5 minutes.
    The changes that occurred by card at the stations are not 
read by the reading clerk, and the changes effected in the 
first 10 minutes of the vote by ballot card in the well 
likewise are not read. So the only one of the changes of the 
transactions this morning that would be read so far would be 
Ms. Herseth-Sandlin, which is after the 5-minute lockout by 
card in the well.
    So when the Chair says, ``Have all Members voted,'' that--
usually wait a decent interval after that because that usually 
reminds somebody that they haven't voted yet, and then there is 
a little bit of activity.
    Then when the Chair thinks it is really going to close, she 
will ask, ``Does any Member wish to change a vote,'' and that 
triggers the activity with Mark and Kristen.
    Ms. Miller. Then Kristen will read.
    Ms. Brandon. A new piece of paper with all the lists of off 
``aye,'' on ``no''; and off ``no,'' on ``aye''; and off 
``present,'' on ``no''; and off ``present,'' on ``aye.''
    Ms. Miller. All this is going on very rapidly, the well 
cards that are after the 5-minute vote, and we are scrambling. 
We are making sure those are listed, and then the reading clerk 
will announce the Ms. Herseth-Sandlin vote, everybody that is 
at the end of the 5-minute vote.
    I see a query on your face, Mr. Hulshof.
    Mr. Hulshof. Only I assume this would be a printout that 
Mark would trigger, or is this handwritten as far as the names 
off ``aye,'' on ``no''?
    Ms. Miller. It is handwritten. We won't have time for a 
printout. Remember, this is the last 5 minutes of the vote. The 
other day I sat here, because I couldn't believe it myself. 
What they typically do is all the well cards then are 
alphabetized quickly, and if we have the time between the 
actual announcing of the results of a vote, the seated tally 
clerk will call downstairs and say, here are the well votes. 
These are the names I have that are voted at the well.
    For verification, we, not only on the screen, but we try to 
double-check to make sure that--double, triple-check to make 
sure we have accurate accounting of the well card votes.
    So he is calling down trying to make sure that our leg ops 
has the same list.
    The Chairman. When you say ``calling down,'' Lorraine, what 
do you mean by ``calling down''?
    Ms. Miller. Oh, yes. He sits there with a phone. There is a 
phone right there.
    The Chairman. Who is he calling?
    Ms. Miller. He is calling a leg ops person downstairs in 
HT-13.
    Mr. Davis. What would happen if there was a discrepancy 
detected after the phone call? What would happen if there was a 
discrepancy?
    Mr. O'Sullivan. That would be after the tally is announced, 
so that is a correction to the vote. And if I have these cards 
and entered one wrong through the whole process to close the 
vote, the tally is announced, and then when I check with my 
staff, check downstairs, they print out a list of what the EVS 
says. The cards I put in, I read these cards against that list, 
and they don't match, and one is wrong, then I have to inform 
the Parliamentarian and then start correcting the tally to the 
various people that need to be informed, and inform the 
presiding officer.
    Mr. Davis. What happens if a discrepancy is detected after 
a vote is announced? You just described a scenario that happens 
before a vote is announced. What if it happens after a vote is 
announced?
    Mr. O'Sullivan. I will describe the vote a little bit. 
During a vote we would like to check these cards several times. 
So during the vote, as I get a chance, what I do is I hit this. 
You see on the screen, you get this well vote icon. This is 
going to tell me all the Members I have entered.
    What I do is I take my cards and run it, proof it against 
this list. Hopefully they match, but if, for example, they 
don't, this is the point where I can correct it before the vote 
is final.
    The Chairman. How frequently does that occur?
    Mr. O'Sullivan. Not that often.
    The Chairman. In the course of 1,000 roll calls.
    Mr. O'Sullivan. Over 1,000? A handful. The error rate is 
pretty small.
    The Chairman. As you are entering the votes manually, you 
are also keeping a manual record. You are writing down on your 
sheet?
    Mr. O'Sullivan. Just only the Members that change, 
submitted a card to change their vote.
    Ms. Miller. After the 5 minutes.
    The Chairman. But you are keeping this record on this 
sheet?
    Mr. O'Sullivan. During the last 5 minutes.
    Ms. Miller. Only the last 5 minutes.
    Mr. O'Sullivan. Once the Clerk reads that sheet, that sheet 
is given to the official reporters, and then any further 
changes are just verbally read by the reading clerk, and the 
official reporter picks it up that way.
    The Chairman. Say that again, Mark?
    Mr. O'Sullivan. Once the reading clerk reads that list, 
that list is submitted to the official reporter. Any further 
changes that occur are handled--as I enter them, the reading 
clerk calls them up, and the official reporter picks it up.
    The Chairman. They are not recorded then on this?
    Mr. O'Sullivan. Not on that sheet.
    The Chairman. That is just a verbal communication between 
you, the sitting clerk and the reading clerk.
    Ms. Miller. Yes, sir.
    Mr. Hulshof. In fact, I think all of us probably have been 
more attentive to you since we have come together as a 
committee. I know you haven't noticed us watching you.
    The Chairman. We are watching you closely, Mark.
    Mr. Hulshof. But on that scenario, Mr. Delahunt suggested, 
after the reporter gets the official list, that actually the 
reading clerk is witnessing the Member rushing up to the well, 
grabbing the red card.
    So, obviously, recognizing the Member, and often it is the 
same Member or group of Members that are running behind. So it 
is not as if she is just relying upon your word; she is 
watching this scenario unfold, correct?
    Mr. O'Sullivan. Right. Not every Member who is coming to 
the well is changing. They are also submitting initial votes, 
particularly late in the vote.
    The Chairman. Those, again, are not recorded on this sheet?
    Mr. O'Sullivan. No. They would be called off, but the 
reading clerk would not say, ``Off `aye,' on `no.' '' They 
would just say----
    Ms. Miller. Mr. Pence votes ``aye.''
    The Chairman. You are observing this. Particularly in, you 
know, in a vote of consequence, you are watching, you are 
observing. Kristen, are you watching and observing as well, or 
are you just taking your cue from Mark?
    Ms. Brandon. No, I watch here. I watch Frances, I watch who 
is filling the card, I watch what Mark does. I watch the 
computer screen as well, especially for changes.
    How do I know it is a change or just an initial vote? That 
is why I have to look on here, and Mark will give me a cue as 
what to say, and I will verify that through the computer 
screen.
    Ms. Miller. There is a lot of coordination and contact 
going on between the Parliamentarian, the tally clerks both 
standing and seated, and the reading clerk. That is why they 
all have to be in sync.
    Yes, Mr. LaTourette.
    Mr. LaTourette. After the time is expired then and the 
presiding officer asks do any Members wish to change their 
vote, do you do anything to lock out the station so the only 
way they can vote is to come to the well for that initial vote? 
Then what do you do?
    Mr. O'Sullivan. There is an icon here, bottom left, ``Close 
vote stations.''
    Ms. Miller. Do you see it? You are on the bottom there, on 
the left.
    Mr. O'Sullivan. When the Speaker asks for changes, and 
those changes are all announced, and it is apparent that no 
other Members are trying to enter the Chamber and vote 
initially, that is when I will get the ``Close vote stations,'' 
and down here on the bottom right, it just confirms to me that 
the voting stations are closed.
    Ms. Miller. You see on the bottom right it says, ``Voting 
stations are closed.''
    Mr. O'Sullivan. To allow as many Members who have their 
badges to vote out on the voting station instead of forcing 
them to come to the well.
    Mr. LaTourette. Is that discretionary with you, as opposed 
to what you see going on?
    Mr. O'Sullivan. It is a little bit of a judgment call, but 
it is after the point where the changes have been announced.
    Mr. LaTourette. But you make the judgment as the seated 
tally clerk.
    Ms. Miller. Half the time they will turn to the presiding 
officer and say, ``Do you want the Member to vote?'' That is 
where the discretion really comes from the presiding officer.
    Mr. O'Sullivan. The Parliamentarian, the presiding officer.
    Ms. Miller. Mr. Hulshof.
    Mr. Hulshof. Is that a reversible decision, or once you 
click the ``Close vote station,'' and we see, in fact, ``Vote 
stations are closed,'' can you undo that entry?
    Mr. O'Sullivan. Yes.
    Ms. Miller. Yes, because there can be 20 Members, 15 
Members that all of a sudden rush to the floor. Usually there 
is a coordination with the Parliamentarian.
    Mr. Sullivan. If, under the circumstances, it is more 
efficient to reopen the stations because some meeting just 
broke up and a dozen Members walked in, we would suggest that 
Mark reopen the stations.
    Mr. Davis. Let me follow up on that. The whole decision-
making around closing the vote station, is that due to a 
particular rule or to a particular textual rule, or is that the 
custom and practice on the part of those of you who sit in 
these positions?
    Mr. Sullivan. Custom and practice. Even, I believe, it is 
correct to say that the timing, linking the closing of the 
stations to the reading and the changes, that is just the way 
the protocol developed. It is not textual in the black letter 
of the rules.
    Mr. Davis. So when you make the decision to hit ``Close 
vote station,'' that is your subjective judgment that there are 
no Members in the process of changing votes, and that the Chair 
is about to call the vote.
    Mr. O'Sullivan. In practice, we close the vote station 
almost all the time as soon as the reading clerk reads the 
changes.
    Ms. Miller. That is typical.
    Mr. O'Sullivan. That is the end of the vote.
    Mr. Davis. Now, what about the scenario that we see 
probably four or five times a year when a vote that has been 
opened for a period of time, the clock is at zero, but in real 
time 10 minutes has elapsed, 20 minutes has elapsed, and it is 
obviously uncertain when the vote is going to be called, and it 
is probably uncertain whether any Members might change votes. 
Can you speak to the custom and practice in that scenario?
    Mr. O'Sullivan. The voting stations would be left open 
until----
    Ms. Miller. Until the Chair tells us that the vote is going 
to be closed, yes, until we get a signal from the presiding 
officer. We rely upon the presiding officer to tell us what you 
are going to do, what you want us to do.
    Mr. Davis. Even if the reading clerk has read the list of 
off ``aye,'' on ``no,'' the list of well votes, if there is a 
scenario in which a number of minutes have elapsed from real 
time, and it is uncertain when the vote is going to be called 
technically, can you leave the vote stations open, or would it 
be in your discretion to close them?
    Mr. O'Sullivan. I think generally we would leave them open. 
If we were told that the vote was going to be kept open, we 
would normally----
    Mr. Davis. If you were told the vote was going to be kept 
open, who, in custom and practice, would be telling you that?
    Mr. O'Sullivan. Probably the Parliamentarian. We would have 
some information that there were Members who were stuck in an 
elevator, or there were Members who just left the White House, 
a meeting with the President, some reason why the vote was 
being kept open on an indefinite basis.
    Mr. Davis. Let's say hypothetically the clock had been at 
zero for, in real time, 10 minutes, and it was clear that there 
were Members milling around the well. The vote was tied, or the 
vote--let's take that the vote was tied. There were Members 
moving around the well. At that point, as the Parliamentarian, 
would you receive an instruction from the Speaker, or would you 
be making your own subjective judgment at that point as to when 
to close the vote stations?
    Mr. Sullivan. In the absence of any instructions from 
anybody else, if we perceived that all Members were done 
voting, regardless if they were milling about, we would suggest 
to the presiding officer that he proceed to close the vote.
    If there were some--you know, if the leadership told us, 
``We are waiting for a meeting to break up in the Rayburn 
Building,'' then we would tell the presiding officer, ``They 
would like you to just bide your time. There is a meeting about 
to break up.''
    Mr. Davis. The last question I would ask, again, the 
hypothetical is that the vote is tied, say, 212-212. In that 
instance, trying to get a sense of how the Parliamentarian 
would assess that kind of situation, and what factors would 
guide an instruction to close the vote station?
    Mr. Sullivan. If it appeared that all Members had voted, 
and that was just where the chips fell, we would tell the 
presiding officer to announce the vote, and whatever the 
proposition was had failed upon a tie vote.
    Mr. Davis. But it would be up to the presiding officer 
whether or not to follow your statement?
    Ms. Miller. Yes.
    The Chairman. Yes. It is not an instruction, it is a 
recommendation.
    Mr. Sullivan. If the presiding officer thought there were 
still Members about to vote or about to change their votes, he 
would tell us, ``Oh, I don't think that is the thing to do.''
    Ms. Miller. Ms. Herseth had a question.
    Ms. Herseth-Sandlin. Well, when you said--I think you 
clarified, Mr. Sullivan, that you are getting information from 
leadership, so custom and practice has been for a number of 
years that it is not just the presiding officer that is kind of 
observing and engaging, it is Members of leadership that may be 
providing information to the Parliamentarian that is relevant 
to when to close the vote.
    Mr. Sullivan. There are periodic reports from either whip's 
organization or either leadership table about Members being 
caught in some kind of a security situation at the south door, 
or Members being in an elevator, or a meeting going on, then we 
feed all of that data to the Chair.
    As a matter of course, on almost every vote the decision to 
begin the closing protocol, it is received from third parties. 
How to execute that protocol should be the presiding officer's 
job and not a third party's job. But the decision to embark on 
closing is a political judgment, I guess, by the leadership.
    Ms. Miller. Mr. Pence.
    Mr. Pence. I am just wondering about--it seems to me there 
is a distinction here between making the decision to close the 
vote stations and a decision to terminate the vote or complete 
the vote; is that correct?
    Mr. Sullivan. Yes.
    Mr. Pence. We actually talk here, and this is very 
illuminating, but we are talking about the decision to close 
the voting stations, what you take into account at that point, 
and I am anxious to hear what other considerations factor into 
the decision to actually terminate the vote.
    Mr. Sullivan. On closing the voting stations, I don't think 
we ever get any input from outside, because people aren't that 
deep in the weeds. It is just the assessment of the people up 
here on the totality of the circumstances where the path of 
efficiency lies.
    If there are still Members trickling into the Chamber, it 
makes sense to leave the stations open. For those who have 
their card, it is a lot quicker.
    Mr. Pence. So some of what the Parliamentarian was just 
reflecting on is associated with the decision to terminate.
    Mr. Sullivan. And announce a result, yes.
    Mr. Pence. And announce a result. Thanks for that 
clarification.
    Mr. Hulshof. I think we are about to move on then to really 
closing the vote. Before we do that, can you give us the 
differences between a 15-minute vote, which we have just 
experienced--what, if any, differences are there at the voting 
stations in that instance and a 5-minute vote?
    For instance, are the voting stations--my understanding is 
that one can actually change a vote even when it shows 0, 0, 0 
on a 5-minute vote so long as you have not closed the voting 
stations there, correct?
    Mr. Sullivan. Yes, 5-minute vote, 2-minute vote. You are 
allowed to change throughout the whole vote until that icon is 
hit, and they are closed.
    The Chairman. But that doesn't prevent--that, again, as Mr. 
Pence was speaking to--that doesn't begin to terminate the 
vote?
    Mr. Sullivan. Not to that extent.
    The Chairman. I understand the focus on the machines, but 
the reality is that even when the stations are closed, the 
opportunity is to do it manually.
    Ms. Miller. Yes. Come to the well.
    The Chairman. And continues until the announcement to 
terminate.
    Mr. Pence. May I ask one push-away-from-the-table question 
for a second? The Parliamentarian's role in all of this--I see 
a lot of moving parts. The Parliamentarian I see almost never 
moving, but is it proper to understand that the Parliamentarian 
is overseeing and orchestrating this process throughout?
    I guess I am asking, is the Parliamentarian calling the 
play, or is the Parliamentarian simply there in an advisory 
capacity?
    Ms. Miller. I see it more as a coordinator. We have some 
integral parts of it. It is a coordination, I think. We rely 
upon the Parliamentarian because he and his folks know the 
rules.
    John, as I see it, we have got these moving parts, is he 
the captain?
    Mr. Sullivan. We are just here to help. We are the liaison 
between the seated tally clerk and the Chair. I would not say 
that we, in any sense, supervise the seated tally clerk, 
because none of us would be capable of doing the seated tally 
clerk's job.
    Mr. Pence. That is very helpful.
    Mr. Sullivan. The seated tally clerk is usually the coolest 
customer in the Chamber.
    Ms. Miller. Yes, they really are. They can't be interfered 
with by the commotion or Members talking or whatever is going 
on in the Chamber. They have got to be focused.
    Mr. Pence. If I may, so the Clerk's organization, people 
employed by you in your office, are administering and recording 
and processing the vote.
    Ms. Miller. Yes.
    Mr. Pence. The Parliamentarian acts as a liaison between 
the Clerk's process and the Chair.
    Ms. Miller. Very much so.
    Mr. Pence. Fair?
    Mr. Sullivan. That is fair.
    Ms. Miller. Yes.
    Mr. O'Sullivan. I will just say as we get to the end, I am 
waiting for cues from the Parliamentarian on what steps to 
proceed to.
    The Chairman. Because he is communicating with the 
presiding officer.
    Mr. Sullivan. Sometimes it is just that we have a better 
view than Mark does. He might not be able to see somebody on 
the west side of the well.
    Ms. Miller. One of the things the reading clerk tries to do 
is anticipate your actions here, as you are winding down debate 
and figuring out what you are going to do, and if it is a 
motion to recommit, are you going to vote it, or are you going 
to voice it, those kinds of things. So we have our antennas out 
trying to figure out what procedure you are going to do.
    Mr. Davis. Let me ask just one quick question, Lorraine. I 
know we do have to get out of here by a certain time, so I will 
try to be very brief.
    We have talked about--we have used the word ``protocol'' 
several times. I guess by protocol we mean a custom and 
practice that is followed, that governs a given scenario. Is 
there any kind of a new protocol that sets in what I will call 
a prolonged vote situation? The vote is tied. It has been at 
zero for a while.
    Obviously the vote on the prescription drug bill 4 years 
ago is an example of a prolonged vote scenario. We have seen 
others where it is clear there is some deadlock, it is clear 
there is lobbying going on in the Chamber. Is there any 
protocol from the standpoint of the Parliamentarian or the 
tally clerk that settles in when we are in that kind of a 
prolonged vote count scenario?
    Ms. Miller. For us, we wait.
    Mr. Sullivan. That is off protocol. Off the record, we 
would go to the leadership and say, ``This vote should be 
closed. The motion to reconsider might be available. The right 
course is to close it.'' And our advice is to accept it or not.
    Mr. Davis. Now, what would lead you to give advice one way 
or another? What would inform the Parliamentarian's judgment as 
to what recommendation to make to the leadership?
    Mr. Sullivan. When the totality of the circumstances would 
indicate that all Members are done voting.
    Mr. Davis. But ultimately it would be if she characterized 
it a political judgment on the part of the leadership whether 
to continue lobbying or whether to continue the vote.
    Mr. Sullivan. In the case you mentioned, I think it was the 
judgment of the leadership, rather than losing the vote and 
entering a motion to reconsider to recoup that loss, it was 
better--the iron was hot, and something was bubbling, and they 
wanted to let it bubble to the top.
    Mr. Davis. That is an entirely permissible consideration as 
far as the Parliamentarian is concerned?
    Mr. Sullivan. We don't feel like we can push the Speaker 
around, if that is what you mean.
    Mr. Davis. So it wouldn't be the Parliamentarian's call, it 
would be the leadership's call in that scenario?
    Mr. Sullivan. We try to tell them what we think is the best 
course of action, and I am sure they give it due consideration.
    Mr. Davis. Okay.
    Ms. Miller. We would be in a holding pattern.
    Mr. LaTourette. Not to be a nitpicker, but the rules have 
changed, and now it is my understanding that the rules of the 
House don't permit you to keep the vote open for the sole 
purpose of affecting the outcome.
    Is that a correct reading of the new rule?
    Mr. Sullivan. Clause 1(b) of rule 20 does include language, 
I think, as far as parliamentary. I think it is hortatory. I 
think it would be enforced by collateral means, not on the 
spot. But you are right, it is there.
    Mr. Pence. One more question. I think in response to Mr. 
Davis, you said when the totality of the circumstances 
indicated that all Members have voted, or----
    Mr. Sullivan. They are done voting. Nobody is trying to 
change.
    Mr. Pence. Members are done voting. Is it fair to say that 
the controlling factor with regard to your recommendation is 
whether or not all Members are done voting?
    Mr. Sullivan. I believe that is the central consideration.
    Mr. Davis. Would it also--just to follow up Mr. Pence's 
point, would it also be relevant if it appeared Members were 
mulling or reconsidering their vote?
    Mr. Sullivan. I think so.
    Mr. Davis. If the leadership communicated to the 
Parliamentarian that Members were mulling their vote or 
reconsidering their vote, would that be the recommended factor 
to close the vote generally?
    Mr. Sullivan. In that circumstance, the leadership is 
really conveying the information to the presiding officer, 
perhaps through us. I don't want to depict the Parliamentarian 
as being in charge of, you know, pushing Members of Congress 
around.
    The presiding officer is the one who rules on things with 
our advice. We never say that we rule on something.
    Mr. Davis. Just one last point on Mr. LaTourette's 
observation about the rule change that was made earlier this 
year by the new Majority. The rule change, as I understand it, 
relates to the fact the vote can't be kept open for the sole 
purpose of--what is the phrase? If I can actually capture the 
phrase--affecting the outcome.
    Does that exclude a scenario in which the Chair simply 
wanted to allow Members to have a chance to fully consider 
their decision, because I understand in one box you have got 
affecting the outcome. There is another box, it seems, in which 
Members may simply be reconsidering or reevaluating their vote.
    Is there anything in the new rules that says or precludes 
the possibility of a vote being kept open for the purpose of 
allowing Members to reconsider and reevaluate? Is that scenario 
addressed in the new rules?
    Mr. Sullivan. I don't think the rule is that specific.
    Mr. Davis. That is a very judgmental, subjective analysis.
    Mr. Sullivan. We have advised the presiding officer on a 
couple of questions during Congress that the Chair has to mark 
a difference between achieving a result and reversing a result.
    Mr. Davis. Technically you could have Members on both sides 
who could be reevaluated, so it wouldn't necessarily be if the 
result was changing, it would be that Members on both sides 
were possibly reconsidering, and ultimately the Chair was 
trying to effect the intent of the Members; is that right?
    Mr. Sullivan. That is right. I think the hardest case is 
the mulling, because that is a period of inactivity. Mulling is 
a very passive activity.
    The Chairman. To mull.
    Ms. Miller. We are about to begin our set-up for session. 
We need to close this vote. I don't want to cut off questions, 
but clearly they are going to be coming in here in a minute 
trying to set up for the session.
    Mark, let's move to close the vote. Our vote stations are 
closed.
    Mr. O'Sullivan. If I can say one thing; for our purposes, 
when we close that vote station, that is to allow the tally 
clerk here to know that the tally on the board is not going to 
change from any action out there. So the vote station is 
closed. The only activity is going to occur here.
    So when I have then quoted the last vote card, and the vote 
station is closed, I can tell the tally clerk, okay, the tally 
is good to be recorded. Then I would go to this next screen, 
which is the terminate vote.
    The tally clerk at that point, when the Speaker said, ``All 
time has expired,'' she would write the tally.
    Ms. Miller. Have we entered Ms. Herseth-Sandlin?
    Ms. Brandon. Yes.
    Ms. Miller. There are only five, six votes----
    Mr. LaTourette. I decided I don't want to vote on this.
    Ms. Miller. You don't want to vote?
    Mr. LaTourette. I don't want to vote.
    Ms. Miller. We wanted you to be the one that--we are ready 
to close this vote, and Mr. LaTourette comes down the aisle and 
says, ``One more, one more.''
    Mr. Gore. Wait, wait, wait.
    Ms. Miller. You are setting it to final. Have you set it to 
final?
    Mr. O'Sullivan. No. Do you want me to finalize it?
    Ms. Miller. Yes, set it to final.
    Mr. O'Sullivan. The Speaker would have read the tally at 
this point, if it gets to final. The Chair might have begun to 
say on this question, ``The yeas are three, the nays are''--and 
then hold back because Mr. LaTourette wanted to enter. Do you 
want me to----
    Mr. Gore. Wait just a second.
    Mr. O'Sullivan. Do you want me to finalize it?
    Ms. Miller. Yes.
    Mr. O'Sullivan. Let me go back one step here. Let me go 
back to the terminate votes. Okay, when the Speaker starts to 
read the tally, I am going along with him with this box here, 
and then when he says, ``The motion to reconsider is laid on 
the table,'' that is my cue to hit this icon that will put the 
word ``final.'' That is normal.
    Ms. Miller. Do you see that? Did everybody understand that? 
You got that? Okay.
    Mr. O'Sullivan. At this point I guess we are in a scenario 
where a Member does arrive.
    Ms. Miller. A Member does come.
    Mr. O'Sullivan. Presiding officer has said, ``Record the 
Member.''
    Ms. Miller. That one gets torn up, and another tally sheet 
is made.
    Mr. O'Sullivan. I can leave this green. I go to my well 
voting.
    Mr. Pence. Ms. Miller, consistent with your testimony at 
our last hearing, the Chair is announcing on the basis of the 
tally sheet that is handed forward.
    Ms. Miller. To the Parliamentarian, and then to the 
presiding officer.
    Mr. Pence. But even if it has been announced, your 
testimony today is that at that point you can rip the tally 
sheet up and revise the vote.
    Mr. Sullivan. The Chair didn't complete an unequivocal 
statement of the result. He can pull back and receive another 
slip.
    Mr. Pence. What constitutes an unequivocal statement of the 
result? Is it the phrase, ``A motion to reconsider was laid 
upon the table''?
    Mr. Sullivan. Not necessarily. Sometimes the motion to 
reconsider is not applicable, so that can't be a talisman. 
Again, it is totality of the circumstances. I can recall on 
occasion when a Chair uttered what in a transcript would look 
like an unequivocal statement of result, but it is just because 
the last syllable was coming out of his mouth just as he wanted 
to pull up because a Member was running down the aisle. That 
vote was taken because 700,000 Americans wanted it to be 
recorded.
    The fact that the Chair--we rationalize that the Chair 
hadn't put the period on the end of the sentence in that 
circumstance. But usually if the Chair says, ``The amendment is 
adopted,'' that is the unequivocal statement of the result. 
``The bill is passed.''
    When he utters that sentence, that should be the end of the 
vote.
    Ms. Brandon. Mr. LaTourette.
    Mr. O'Sullivan. Votes ``no.''
    Ms. Brandon. Mr. LaTourette votes ``no.''
    Mr. Sullivan. May I say something about the production of 
this slip? This is probably the most important quality 
assurance process step in the process, because when I get that 
slip, I know that the numbers that are written on that slip 
came from a voting system that was closed to further input at 
the time that those numbers were written down.
    So there is a communication between the seated tally clerk 
and the standing tally clerk, or Mark affirms to Frances, ``I 
have closed the system to further input.'' Frances waits for a 
beat so that the refresh cycle of the computer will give her a 
static rather than a dynamic result on the scoreboard, and she 
will be assured, then, that the numbers she is going to take 
off the wall and put on the paper won't be impeached by an 
uptick a second later, because Mark has told her, ``There 
aren't going to be any upticks, the system is closed. Nobody 
can input anything except me.'' That is when Frances puts the 
numbers on the slip. That slip that I gave to the Chair, the 
Chair knows this is the product of a closed system.
    The Chairman. Until LaTourette runs in, you have got that 
in your hand.
    Mr. O'Sullivan. Hopefully Mr. LaTourette is noticed before 
the Chair reaches the period on that sentence, ``The bill is 
passed,'' or, in this case, ``We lack a quorum.'' In this case 
the bill would fail.
    Mr. Davis. Let me ask you one question about that, the 
exact scenario, Mr. LaTourette comes in. As the exact vote is 
being read, the whole judgment of finality, would it be the 
Parliamentarian's judgment or the presiding officer's judgment 
that governs finality?
    Mr. Sullivan. If it is judgment, we would advise him.
    Mr. Davis. The presiding officer.
    Mr. Sullivan. Yes.
    Mr. Gore. Let me just point, as we all saw, it said 
``final'' now for some time as we have gone through this, but 
when Mr. LaTourette's vote was added by Mark, the vote from 3-2 
changed to 3-3, even though it said ``final'' the whole time.
    The Chairman. Just one quick question. You had mentioned 
earlier that communications between the leadership and the 
presiding officer, invariably does it go through you, or will, 
on occasion, leadership designate a member of the leadership 
team to communicate directly to the presiding officer?
    Mr. Sullivan. I think occasionally the presiding officer 
talks to people other than us.
    Ms. Miller. Any other questions on that point?
    Ms. Herseth-Sandlin. One last question. Custom and practice 
on the quality assurance of the tally sheets, is there any 
reference to tally sheets or another phrase used to describe 
them in the rules?
    Mr. Sullivan. No.
    Ms. Miller. The time to set the vote, the time to final, 
and then the vote has been set to final already. So that is 
another verification, and we are ready to go. Then laid upon 
the table, and we are done.
    If there are other questions that you have, what I really 
thought we would do is run through it, and then run through it 
again with questions.
    Mr. LaTourette. We took care of that for you.
    Ms. Miller. We are at another place.
    Mr. Pence. It is very helpful.
    Mr. Chairman, thank you for suggesting it.
    The Chairman. I think if at some point in time the 
committee considers, it could be helpful to have another 
session.
    Ms. Miller. Yes, sir, not a problem.
    The Chairman. Along these lines, that we will be seeking 
you out.
    Mr. Davis. Mr. Chairman, one scheduling question. For the 
Members, given that we have lost a week because of Mrs. Davis' 
funeral last week, is it the Chair's intent that we convene 
next Thursday?
    The Chairman. I will look to the Members, and seeing 
everyone nodding, the answer is yes.
    Mr. LaTourette. Mr. Chairman, when Mr. Davis and I put 
together a timeline, my understanding would be the next hearing 
would be along the lines of collecting the precedence from the 
Parliamentarian.
    Also Mr. O'Sullivan was the chief tally clerk and was not 
in the building on the night of roll call 814; is that right?
    Ms. Miller. No.
    Mr. LaTourette. You weren't involved in that at all, and I 
think Mr. Davis and I contemplated about bringing him in to 
question.
    Mr. Davis. That is right. That would be next week.
    Ms. Miller. Did this work, the monitoring? There was no way 
that six of you could stand behind Mark this morning.
    The Chairman. We thought it would be good if we could 
just----
    Mr. Hulshof. This is completely off the subject track here. 
My suggestion might be that the next session of Congress, the 
newly-elected Members, you should do this exercise for those 
Members, because if you have veteran Members that did not 
understand the process until this very----
    The Chairman. Moment.
    Mr. Hulshof. This has been very helpful, and I think maybe 
incoming Members should also gain an appreciation of it.
    Ms. Miller. We will do it.
    The Chairman. That could very well be a recommendation.
    Ms. Miller. Thank you very much. We appreciate it.
    [Whereupon, at 9:12 a.m., the select committee was 
adjourned.]

                                  <all>

</pre></body></html>
